No. 20IN THE
Supreme Court of the United States
_________
ALVIN HENRY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_________

MOTION FOR LEAVE TO PROCEES IN FORMA
PAUPERIS
Petitioner, Alvin Henry, seeks leave to file the attached Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit without prepayment of fees or costs and to
proceed in forma pauperis.
Petitioner was represented on appeal by the Federal Public Defender for the District of the
Virgin Islands, counsel appointed pursuant to 18 U.S.C. ยง3006A, and is presently represented by the
Federal Public Defender for the District of the Virgin Islands. Counsel for petitioner is a member
of the bar of this Court.
Respectfully submitted,
/S/Mathew Campbell
MATTHEW CAMPBELL
Counsel of Record

FEDERAL PUBLIC DEFENDER
DISTRICT OF THE VIRGIN ISLANDS
1336 Beltjen Road,
Suite 202
St. Thomas, VI 00802
Tel: (340) 774-4449
Email: Matt_Campbell@fd.org
Counsel for Petitioner
April 1, 2021

